       DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                           Office of Audit Services
                                                                           Region I
                                                                           John F. Kennedy Federal Building
                                                                           Room 2425
                                                                           Boston, MA 02203
                                                                           (617) 565-2684
January 24, 2011

Report Number: A-01-10-00008

Mr. Russell J. Begin
Acting Commissioner
Maine Department of Health and Human Services
221 State Street
Station Number 11
Augusta, ME 04333

Dear Mr. Begin:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Followup Review of Medicaid Cost-of-Care Overpayments
Made to Nursing Facilities in the State of Maine. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov

If you have any questions or comments about this report, please do not hesitate to call me, or
contact George Nedder, Audit Manager, at (617) 565-3463 or through email at
George.Nedder@oig.hhs.gov. Please refer to report number A-01-10-00008 in all
correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Russell J. Begin


Direct Reply to HHS Action Official:

Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations (CMCHO)
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




    FOLLOWUP REVIEW OF
   MEDICAID COST-OF-CARE
   OVERPAYMENTS MADE TO
  NURSING FACILITIES IN THE
      STATE OF MAINE



                      Daniel R. Levinson
                       Inspector General

                        January 2011
                        A-01-10-00008
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Maine Department of Health and Human Services (the State agency) is responsible for
administering MaineCare, the Maine Medicaid program, in compliance with Federal and State
statutes and administrative policies. The State agency reimburses nursing facilities based on an
established per diem rate for services provided to Medicaid beneficiaries. Pursuant to Medicaid
requirements, the State agency must use any additional resources that a beneficiary has,
including Social Security payments, to reduce its Medicaid payments to nursing homes. The
State agency determines the amount of the beneficiary’s contribution during the claims eligibility
process and enters this amount into its computer system. The beneficiary’s contribution is
remitted directly to the nursing home each month.

When the State agency does not reduce the Medicaid per diem payment to the nursing facilities
by the amount of the beneficiary’s contribution, the nursing home could receive overpayments.
Pursuant to Medicaid requirements, the nursing facility must return any overpayments to the
State Medicaid program. The State agency is required to refund the Federal share to the Centers
for Medicare & Medicaid Services (CMS) on its next Quarterly Statement of Expenditures for
the Medical Assistance Program (CMS-64) within a 60-day period following discovery.

From 2008 to 2009, we issued audit reports on seven nursing facilities to the State agency that
identified $3 million in Medicaid cost-of-care overpayments to nursing facilities (the Federal
share of these overpayments is $1.9 million). These overpayments occurred because the State
agency’s computer system, which processes reimbursement claims submitted by health care
providers, experienced serious malfunctions that resulted in incorrect payments to providers,
including nursing facilities. Accordingly, we recommended that the State agency:

   •   refund the Federal share of the overpayments to CMS on its next quarterly CMS-64 and

   •   ensure that Medicaid overpayments to nursing facilities are indentified and refunded.

The State agency agreed with our findings and recommendations and took steps to identify these
overpayments until a new computer system was implemented. Specifically, the state agency
performed audits of costs-of-care payments to nursing facilities. In September 2010, the State
agency began implementation of a new computer system to correct cost-of-care overpayments
from being made.

This current review of the State agency Medicaid cost-of-care overpayments to nursing facilities
was conducted to determine what actions had been taken to implement our recommendations
from prior reviews.




                                                i
OBJECTIVE

The objective of our review was to determine whether the State agency implemented our prior
recommendations to refund the Federal share of $1.9 million in Medicaid cost-of-care
overpayments to seven nursing facilities and to ensure that Medicaid cost-of-care overpayments
are identified at other nursing facilities and the Federal share is refunded.

SUMMARY OF FINDING

The State agency generally implemented our recommendations from the reviews of Medicaid
cost-of-care overpayments to nursing facilities. Specifically, the State agency:

   •   refunded the Federal share of $1.9 million from prior audits of seven nursing facilities
       and

   •   identified $9.06 million in additional overpayments made to 73 nursing facilities.

However, the State agency has $1.68 million in uncollected overpayments from 45 nursing
facilities (the Federal share is $1.09 million). The overpayments were not credited within 60
days on CMS-64. As a result, the State agency’s Federal claim was overstated by $1.09 million
because the overpayments were not credited on the appropriate CMS-64. These deficiencies
occurred because the State agency waited for the nursing facilities to return overpayments before
crediting the Federal claim.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund CMS $1.09 million in Medicaid cost-of-care overpayments that it made to nursing
       facilities on its next quarterly CMS-64 and

   •   implement policies and procedures to ensure that overpayments identified are returned in
       the required amount of time.

STATE AGENCY COMMENTS

In comments on our draft report, the State agency concurred with our findings and
recommendations and said that it had refunded part of the overpayments and would refund
additional overpayments at a later time. The State Agency’s comments are included in their
entirety as Appendix B.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                         Page

INTRODUCTION..........................................................................................................1

          BACKGROUND .................................................................................................1
              Medicaid Cost-of-Care Payments ............................................................1
              Prior Office of Inspector General Audits .................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................2
               Objective ..................................................................................................2
               Scope ........................................................................................................2
               Methodology ............................................................................................2

FINDINGS AND RECOMMENDATIONS ................................................................3

          FEDERAL MEDICAID REQUIREMENTS .......................................................3

          MEDICAID COSTS-OF-CARE OVERPAYMENTS ........................................4

          RECOMMENDATIONS .....................................................................................4

          STATE AGENCY COMMENTS………………………………………………4

APPENDIXES

    A - MEDICAID COST-OF-CARE OVERPAYMENTS TO NURSING FACILITIES

    B – STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Medicaid Cost-of-Care Payments

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. The Maine
Department of Health and Human Services (the State agency) is responsible for administering
MaineCare, the Maine Medicaid program, in compliance with Federal and State statutes and
administrative policies.

The State agency reimburses nursing facilities based on an established per diem rate for services
provided to Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must
use any additional resources that a beneficiary has, including Social Security payments, to reduce
its Medicaid payments to nursing homes. The State agency determines the amount of the
beneficiary’s contribution to the cost-of-care during the claims eligibility process and enters this
amount into its computer system. The beneficiary’s cost-of-care contribution is remitted directly
to the nursing facility each month.

When the State agency does not reduce the Medicaid per diem payment to the nursing facility by
the amount of the beneficiary’s contribution, the nursing facility could receive overpayments.
Pursuant to Medicaid requirements, the nursing facility must return the overpayments to the State
Medicaid program, which in turn is required to refund the Federal share within a 60-day period
following discovery to CMS on its next Quarterly Statement of Expenditures for the Medical
Assistance Program (CMS-64).

Prior Office of Inspector General Audits

From 2008 to 2009, we issued audit reports on seven nursing facilities to the State agency that
identified $3 million in Medicaid cost-of-care overpayments paid to nursing facilities (the
Federal share of these overpayments is $1.9 million). These overpayments occurred because the
State agency’s computer system, which processes reimbursement claims submitted by health
care providers, experienced serious malfunctions that resulted in incorrect payments to providers,
including nursing facilities. Accordingly, we recommended that the State agency:

   •   refund the Federal share of the overpayments to CMS on its next quarterly CMS-64 and

   •   ensure that Medicaid overpayments to nursing facilities are indentified and refunded.

The State agency agreed with our findings and recommendations and took steps to identify these
overpayments until a new computer system was implemented. Specifically, the State agency
performed audits of costs-of-care payments to nursing facilities. In September 2010, the State

                                                 1
agency began implementation of a new computer system to correct cost-of-care overpayments
from being made.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our review was to determine whether the State agency implemented our prior
recommendations to refund the Federal share of $1.9 million in Medicaid cost-of-care
overpayments to seven nursing facilities and to ensure that Medicaid cost-of-care overpayments
are identified at other nursing facilities and the Federal share is refunded.

Scope

We reviewed Medicaid cost-of-care overpayments to nursing facilities identified by the State
agency and reported on the CMS-64s for the quarters ending December 31, 2007, through June
30, 2010. We limited our review of internal controls to obtain an understanding of the State
agency’s procedures for reviewing accounts and reporting overpayments to the Medicaid
program.

We performed fieldwork from January 2010 to October 2010 at the State agency in Augusta,
Maine.

Methodology

To accomplish our objective, we:

   •    reviewed State and Federal regulations pertaining to Medicaid costs of care
        overpayments;

   •    verified that the State agency refunded $1.9 million to the Federal Government in cost-of-
        care overpayments identified in seven prior Office of Inspector General audits;

   •    analyzed lists of Medicaid cost-of-care overpayments identified by the State agency for
        73 nursing facilities;

   •    reconciled Medicaid cost-of-care overpayment identified by the State agency to the
        CMS-64s submitted for quarters ending December 31, 2007 through June 30, 2010;

   •    identified those Medicaid cost-of-care overpayments not credited to the CMS-64 within
        the 60-day period following discovery;

   •    reviewed detailed Medicaid cost-of-care overpayment schedules to calculate Federal
        share owed; and

   •    discussed our results with State officials and Regional CMS officials.

                                                2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

The State agency generally implemented our recommendation from the reviews of Medicaid
cost-of-care overpayments to nursing facilities. Specifically, the State agency:

    •    refunded the Federal share of $1.9 million from prior audits of seven nursing facilities
         and

    •    identified $9.06 million in additional overpayments made to 73 nursing facilities.

However, the State agency has $1.68 million in uncollected overpayments from 45 nursing
facilities (the Federal share is $1.09 million). The overpayments were not credited within 60
days on CMS-64. As a result, the State agency’s Federal claim was overstated by $1.09 million
because the overpayments were not credited on the appropriate CMS-64. These deficiencies
occurred because the State agency waited for the nursing facilities to return overpayments before
crediting the Federal claim.

FEDERAL MEDICAID REQUIREMENTS

Federal regulations 42 CFR § 433.320(a) state, “(1) The agency must refund the Federal share of
overpayments that are subject to recovery to CMS through a credit on its Quarterly Statement of
Expenditures (Form CMS-64). (2) The Federal share of overpayments subject to recovery must
be credited on the Form CMS-64 report submitted for the quarter in which the 60-day period
following discovery, established in accordance with § 433.316, ends.” 1

Federal regulations 42 CFR § 433.304 define discovery as “identification by any State Medicaid
agency official or other State official, the Federal Government, or the provider of an
overpayment, and the communication of that overpayment finding or the initiation of a formal
recoupment action without notice as described in § 433.316.”

Additionally, 42 CFR § 433.316(c) states, “An overpayment resulting from a situations other
than fraud or abuse is discovered on the earliest of– (1) The date on which any Medicaid agency
official or other State official first notifies a provider in writing of an overpayment and specifies

1
  On July 13, 2010, CMS issued SMDL# 10-014, providing initial guidance on Section 6506 of the Affordable Care
Act, which is entitled, “Overpayments.” Under this section, States now have up to one year from the date of
discovery of an overpayment for Medicaid services to recover, or to attempt to recover, such overpayment before
making an adjustment to refund the Federal share of the overpayment. This section was effective March 23, 2010,
the date of enactment, and for overpayments identified prior to the effective date, the previous rules on discovery of
the overpayment will be in effect.

                                                          3
a dollar amount that is subject to recovery; (2) The date on which a provider initially
acknowledges a specific overpaid amount in writing to the Medicaid agency; or (3) The date on
which any State official or fiscal agent of the State initiates a formal action to recoup a specific
overpaid amount from a provider without having first notified the provider in writing.”

MEDICAID COST-OF-CARE OVERPAYMENTS

The State agency identified $9.06 million in Medicaid cost-of-care overpayments made to 73
nursing facilities. However, the State agency has $1.68 million in uncollected overpayments (the
Federal share is $1.09 million) from 45 nursing facilities that has not been credited within the 60
days of the overpayment being identified. (See Appendix A.)

The nursing facilities were notified of the amount of overpayments through letters sent by the
State agency. The State agency notified the nursing facilities of the overpayments between June
3, 2009, and March 12, 2010. As of June 30, 2010, the number of days the overpayments has
been outstanding ranges between 110 and 392 days.

As a result, the State agency’s Federal claim was overstated by a total of $1.09 million because
the overpayments were not credited on CMS-64. These deficiencies occurred because the State
agency waited for the nursing facilities to return overpayments before crediting the Federal
claim.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1.09 million in Medicaid cost-of-care overpayments to nursing facilities on its
       next quarterly CMS-64 and

   •   implement policies and procedures to ensure that overpayments identified are returned in
       the required amount of time.

STATE AGENCY COMMENTS

In comments on our draft report, the State agency concurred with our findings and
recommendations and said that it had refunded part of the overpayments and would refund
additional overpayments at a later time. The State Agency’s comments are included in their
entirety as Appendix B.




                                                  4
APPENDIXES
                              APPENDIX A                          Page 1 of 2

  MEDICAID COST-OF-CARE OVERPAYMENTS TO NURSING FACILITIES

           Notification    Cutoff    Number    Total Amount      Federal
Provider      Date          Date     of Days   Outstanding        Share
    1       10/02/09      06/30/10     271         $47,814.39     $30,228.88
    2       11/16/09      06/30/10     226            7,365.37      4,640.58
    3       11/16/09      06/30/10     226           13,891.97      9,925.97
    4       10/30/09      06/30/10     243            2,550.95      1,683.31
    5       11/25/09      06/30/10     217            3,036.77      2,208.06
    6       11/24/09      06/30/10     218              382.74        263.09
    7       10/09/09      06/30/10     264         147,072.52      93,429.25
    8       10/30/09      06/30/10     243           52,331.46     33,752.82
    9       09/25/09      06/30/10     278         239,223.32     151,993.71
   10       09/28/09      06/30/10     275         190,543.82     120,239.72
   11       11/11/09      06/30/10     231           39,024.99     27,302.14
   12       12/03/09      06/30/10     209           16,548.08     11,577.03
   13       11/24/09      06/30/10     218            7,232.75      4,865.11
   14       11/23/09      06/30/10     219           11,790.17      8,385.75
   15       11/20/09      06/30/10     222            8,718.68      6,073.94
   16       11/25/09      06/30/10     217            1,772.29      1,224.54
   17       12/15/09      06/30/10     197            5,513.92      3,772.26
   18       12/14/09      06/30/10     198           13,440.05      9,634.21
   19       10/20/09      06/30/10     253           45,419.62     28,856.36
   20       11/30/09      06/30/10     212            2,824.16      2,015.23
   21       12/2309       06/30/10     189            4,875.75      3,625.12
   22       11/10/09      06/30/10     232              221.00        139.01
   23       11/19/09      06/30/10     223            9,853.73      6,928.90
   24       10/07/09      06/30/10     266           75,025.52     47,541.17
   25       10/07/09      06/30/10     266            1,881.44      1,211.84
   26       10/30/09      06/30/10     243           25,536.56     16,152.17
   27       12/15/09      06/30/10     197            6,017.21      3,816.30
   28       12/23/09      06/30/10     189            2,499.45      1,761.75
   29       12/23/09      06/30/10     189           14,570.22     10,563.92
   30       01/21/10      06/30/10     160           25,718.67     17,060.05
   31       12/23/09      06/30/10     189            5,391.33      4,017.97
   32       01/19/10      06/30/10     162           18,428.49     12,846.02
   33       01/1410       06/30/10     167            7,542.64      5,336.30
   34       12/04/09      06/30/10     208              495.68        368.54
   35       09/30/09      06/30/10     273           71,342.24     45,238.08
   36       10/30/09      06/30/10     243         220,983.88     140,950.25
   37       01/14/10      06/30/10     167            3,517.04      2,546.43
   38       03/12/10      06/30/10     110           57,033.27     41,399.13
                                            APPENDIX A                         Page 2 of 2

      MEDICAID COST-OF-CARE OVERPAYMENTS TO NURSING FACILITIES

                   Notification          Cutoff    Number    Total Amount     Federal
    Provider          Date                Date     of Days    Outstanding      Share
       39           12/23/09            06/30/10     189           7,688.86       5,090.18
       40           12/15/09            06/30/10     197          10,218.34       7,301.82
       41           11/13/09            06/30/10     229         151,545.07      96,392.27
       42           06/03/09            06/30/10     392          17,513.00      11,166.46
       43           06/03/09            06/30/10     392           1,074.69         687.65
       44           06/03/09            06/30/10     392          17,743.03      11,226.80
       45           06/03/09            06/30/10     392          65,980.30      40,687.04
    TOTAL                                                        $1,679,195    $1,086,1271




1
 Amount rounded to the nearest dollar
                    APPENDIX B - STATE AGENCY COMMENTS
                                                                                         Page 1 of2
                                                                   Department of Health and Human Services
                                                                                        Commissioner's Office
                                                                                                221 State Street
                                                                                      # 11 State House Station
                                                                                   Augusta, Maine 04333-0011
                                                                                            Tel: (207) 287-3707
                                                                      Fa-x (207) 287-3005; TTY: 1-800-606-0215




January 6, 2011


Mr. Michael J. Armstrong
Regional Inspector General for Audit Services
Office of Audit Services, Region I
John F. Kennedy Federal Build ing , Room 2425
Boston , MA 02203

Re: Follow-Up Review of Medicaid Cost-or-Care Overpayments Made to Nursing Facilities in
the State of Maine - Report Number A-01-1 0-00008

Dear Mr. Armstrong : 


The Department of Health and Human Services (DHHS) appreciates the opportunity to respond 

to the above mentioned draft audit report. We offer the following comments in relation to the 

recommendations on Page 4 of this report. 


For your convenience, below we include the summary findi ng and list each recommendation 

followed by our response. Each response includes the State's proposed corrective action plan 

which we believe will bring the State into compliance with Federal requ irements. 


Finding: 

The State agency identified $9 .06 million in Medicaid cost-of-care over payments made to 73 

nursing facilities . However, the State agency has $1 .68 million ($1.09 million Federal share) in 

uncollected overpayments from 45 nursing facilities that has not been credited within the 60 

days of the overpayment being identified . 


The nursing facilities were notified of the amount of overpayments through letters sent by the 

State agency. The State agency notified the nu rsing facilities of the overpayments between 

Ju ne 3, 2009 and March 12, 2010. As of Ju ne 30, 2010, the number of days the overpayments 

has been outstanding ranges between 11 0 and 392 days. 


As a result, the State agency's Federal claim was overstated by a total of $1.09 million because 

the overpayments we t a not credited on the appropri ate CMS-64. These deficiencies occurred 

because the State agency did not credit the Federal cl aim until the nursing facility returned 

overpayments . 


Recommendation: 

Refund $1 .09 million in Medicaid cost-of-care overpayments to nursing facilities on its next 

quarterly CMS-64. 





                                     Caring..Responsive.. Well-Managed.. We are DHHS.
                                                                                         Page 2 of2
Mr. Michael J. Armstrong 

Page 2 



Response: 

DHHS agrees with this recommendation. However, DHHS has refunded $459,241 of the $1.09 

million cost-:of-care overpayments to nursing facilities in its CMS-64 for the first quarter of State 

Fiscal Year 2011 . DHHS will refund the remainder of the Medicaid cost-of-care overpayments 

to nursing facil ities in the first quarter after receipt of the final report. Additionally, it was 

identified by the Office of Inspector General Audit Team that DHHS had refunded the $7 million 

cost-of-care overpayments at a Federal Medical Assistance Percentage rate higher than 

required. DHHS will be requesting credit for the excess overpayments. 


Recommendation: 

Implement policies and procedures to ensure that overpayments identified are returned in the 

required amount of time. 


Response: 

DHHS agrees with this recommendation . DHHS has implemented policies and procedures to 

ensure that overpayments are returned in the required amount of time. In addition , DHHS has 

contracted with HMS to perform audit reviews of targeted Maine nursing homes, private non­

medical institutions and intermediary care facilities . The review will determ ine if the cost of care 

has been deducted correctly by MaineCare on claims. 


We appreciate the time spent in Maine by OIG staff reviewing Maine's Medicaid cost-of-care 

overpayments made to nursing facilities . We believe this effort will enable us to perform this 

function more accurately in the future, 




Sincerelt
        Y' i:
            " t?


E
Ru sell ,Be
           ,"     ~O'l
                1~ 

Acting CommisSioo 



RJB/nmt
